HHS/OIG, Audit - "Review of Minnesota Medicaid Reimbursement for Targeted
Case Management Services for Fiscal Years 2003 and 2004," (A-05-05-00059)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Minnesota Medicaid Reimbursement for Targeted
Case Management Services for Fiscal Years 2003 and 2004," (A-05-05-00059)
October 18, 2007
Complete
Text of Report is available in PDF format (454 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was part of a nationwide review of targeted
case management (TCM) Medicaid program payments.  Our objective was to determine
whether the State agencys claim for Medicaid reimbursement of TCM services
provided during fiscal years (FY) 2003 and 2004 complied with Federal and State
requirements.
Based on our review of 118 claims in 100 sampled beneficiary-months, 7 claims
included in 7 beneficiary-months were unallowable because the services were
insufficiently documented or unsupported by the case records.  As a result, we
estimate that during FYs 2003 and 2004, the State agency claimed $7,311,860
($3,759,338 Federal share) in TCM costs that were unallowable.  We considered
the remaining 111 claims included in 93 beneficiary-months to be acceptable.
We recommend that the State agency (1) refund to the Federal Government the
$3,759,338 for undocumented and unsupported TCM services and (2) ensure that TCM
services claimed under the Medicaid program are properly documented and meet
Federal and State requirements.  In written comments on our draft report, the
State agency did not address our recommendations.